        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Weatherization Assistance Program
under the American Recovery and
Reinvestment Act in the State of
Missouri




OAS-RA-11-12                        August 2011
                                  Department of Energy
                                    Washington, DC 20585

                                         August 22, 2011

MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                    George W. Collard
                         Assistant Inspector General
                          for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Weatherization Assistance Program under the American Recovery and
                         Reinvestment Act in the State of Missouri"

BACKGROUND

The Department of Energy's (Department) Weatherization Assistance Program (Weatherization
Program) received $5 billion under the American Recovery and Reinvestment Act of 2009
(Recovery Act) to improve the energy efficiency of single family, multi-family, and mobile
homes owned or occupied by individuals or families with low incomes. Of the $5 billion, the
Department awarded the State of Missouri a three-year Weatherization Program grant of
$128 million, a significant increase over the $9 million authorized in 2009.

Missouri's Department of Natural Resources (Missouri) is responsible for administering the
Recovery Act grant through 17 local agencies and a municipality (local agencies). Local
agencies are responsible for determining applicant eligibility; performing initial home
assessments to determine appropriate weatherization measures needed; assigning contractors to
weatherize homes; and, conducting final inspections on completed homes. Weatherization
services include installing insulation; sealing ducts; and, tuning or replacing heating systems.
Missouri planned to use its Recovery Act funding to weatherize approximately 20,150 homes.

Given the significant increase in funding, we initiated this audit to determine if Missouri had
adequate safeguards in place to ensure the Weatherization Program was managed efficiently and
effectively.

RESULTS OF AUDIT

The State of Missouri had not always adequately managed its Weatherization Program. We
found problems in the areas of quality of weatherization work, final inspections, resolution of
systemic issues and training. Specifically:

       Missouri had experienced recurring problems in the quality of weatherization work
       performed by contractors for the local agencies. Between July 2009 and June 2010, for
       example, State monitors determined that approximately 30 percent (156 of 523) of the
                                                2

       homes they re-inspected throughout Missouri required further action because the work
       was not acceptable. State monitors found issues such as unacceptably high levels of
       carbon monoxide emitted by furnaces and hot water heaters; furnaces and hot water
       heaters that had not been vented properly; the lack of pressure release pipes on water
       heaters; and, failures to properly install insulation and to complete all work order
       requirements;

       During our observation of final inspections conducted by three local agencies included in
       our audit (Kansas City Housing and Community Development Department, Community
       Action Agency of St. Louis County, and Delta Area Economic Opportunity Corporation),
       we found that 11 of 20 homes (55 percent) failed local agency final inspections. Eight of
       the homes failed because a furnace or hot water heater was not working properly and/or
       was emitting carbon monoxide at higher than acceptable rates; and,

       In 3 of the 20 final inspections we attended, problems were identified with the initial
       assessments conducted on the homes. These problems included calling for insulation that
       could potentially create a fire hazard without requiring necessary mitigating safety
       measures and failing to identify a hot water heater that was not properly vented.

Subsequent to our review, the local agencies we visited took appropriate action on the issues
noted above, providing us with documentation to verify that they had been resolved and that
homes subsequently passed final inspection.

We also found that one local agency, the Community Action Agency of St. Louis County, had
used Recovery Act funds to acquire more vehicles than needed to meet its weatherization goals.
Although it was aware that the local agency had an excess number of vehicles and asserted that it
had prompted the agency to take action, Missouri was unable to provide any evidence that it had
required the local agency to reduce the vehicle fleet prior to our audit. After we brought this
matter to the attention of State officials, the local agency sold excess vehicles to other local
agencies in the State, recouping over $100,000 that will be available to weatherize additional
homes.

Weatherization work quality problems resulted from a combination of program weaknesses,
including inadequate final inspections conducted by local agencies, ineffective follow-up on
systemic issues identified in re-inspections, and incomplete training of local agency and
contractor personnel. In particular:

       Although they performed effective inspections of the homes we visited, local agency
       final inspectors often failed to identify problems, allowing workmanship issues to persist.
       During the re-inspections of homes weatherized by local agencies, State monitors found
       that in approximately one out of three cases, local agency final inspectors passed homes
       that actually required further action. In other words, homes deemed to be completed by
       local agency officials often had significant problems, such as furnace issues, that had not
       been resolved;

       Neither the State nor the three local agencies we visited resolved systemic issues that may
       have caused recurring weatherization work quality problems noted during inspections and
       re-inspections. Although Missouri had repeatedly identified workmanship issues at local
                                                3

       agencies throughout the State, and had taken some steps to address systemic or frequently
       recurring problems, these actions had not always resulted in improvements in local
       agency processes to prevent the same types of issues from occurring at those homes not
       specifically included in the State's re-inspections. None of the three local agencies
       included in our audit, for example, had required contractors with recurring problems to
       submit corrective action plans to prevent problems in the future; and,

       Although the State's 2009 Weatherization Annual Plan had identified the need for
       statewide training to ensure the performance of quality weatherization work, Missouri
       had not fully implemented a training program for local agency and contractor personnel.

Missouri made significant progress in implementing its Recovery Act-funded Weatherization
Program. As of March 31, 2011, the State reported weatherizing almost 9,900 homes, nearly
half of its overall Recovery Act goal. As noted in the body of our report, the State had taken
steps to safeguard Recovery Act funds by improving its oversight of the local agencies. For
example, the State implemented on-site monitoring at each local agency three times a year,
exceeding the Department's requirement of annual monitoring. However, absent an increased
focus on correcting systemic issues, quality issues are likely to continue. Weaknesses in
Missouri's Weatherization Program can pose health and safety risks to residents, hinder
production, and increase costs. Of particular concern, is the high incidence of furnaces or hot
water heaters not working properly and/or emitting higher than acceptable levels of carbon
monoxide. While the State had required the installation of carbon monoxide detectors to notify
residents of unsafe levels, we believe that more actions should be taken to prevent these
problems from occurring in the first place.

Similar to issues we identified in a series of reports on weatherization programs in other states,
this report offers valuable lessons learned related to identifying and addressing systemic quality
problems. As we have observed on a number of occasions, problems in this area limit the
effectiveness of weatherization programs and increase the risk of health and safety impacts on
recipients of services. Leveraging information developed during each previously completed
weatherization audit (See Appendix 2 for a complete list of reports), could help Federal and state
officials develop and promulgate best practice suggestions to all weatherization grantees.
Incorporation of such practices into existing state programs could be emphasized and verified
during periodic monitoring visits. We made a number of recommendations designed to improve
the Department's administration of the Weatherization Program.

Subsequent to the completion of our field work, we received an allegation raising concerns about
a Missouri local agency not within the scope of our audit. We are evaluating the concerns raised
in the allegation for further action.

MANAGEMENT REACTION

The Department, Missouri, and the three local agencies reviewed provided responses to our draft
audit report. The Department noted that it will continue to aggressively monitor progress in the
areas identified in our report and will assess the State's progress during quarterly visits.
                                                 4

The State shared our concern with respect to workmanship issues and noted that to address these
issues it had increased monitoring of its local agencies; provided additional training; and,
identified recurring issues and shared best practices to address them. State officials, for example,
pointed out that they re-inspect 10 percent of the homes weatherized by high-risk agencies,
rather than the 5 percent re-inspection rate required by the Department. State officials also stated
that beginning in August 2010, they provided on-site training to all sub-grantees and provided
additional one-on-one follow-up training to auditors and contractors on issues such as: building
science, heating and air conditioning, insulation and air sealing, lead safety and occupational
safety and health. State officials also noted that they have distributed periodic newsletters that
identify recurring problems and suggest "best practices" for mitigating such issues. As a result
of their improvements, State officials asserted that they have significantly reduced the rate of
additionally required work on weatherized homes from the 30 percent experienced during the
period July 2009 to June 2010, to 14 percent during the first 4 months of 2011. The State also
expressed concern about our characterization of issues related to carbon monoxide and
assessments calling for insulation where fire hazards existed.

The local agencies we reviewed responded that their relatively small Weatherization Programs
had become much larger with the advent of the Recovery Act. Consequently, the agencies made
several procedural and production adjustments as the Program progressed.

While we acknowledge the improvements made by the State to its Weatherization Program, we
remain concerned that neither the State nor the local agencies included in our review track and
monitor deficient contractors, and that the State had not developed a comprehensive training
program. Two of the three local agencies we reviewed, for example, continued to require further
action at rates approximating 30 percent after re-inspection despite the State's increase in
inspections of weatherized homes. Additionally, State officials told us their "on-site" training
was not formal and involved meetings to discuss re-inspection results and provide guidance on
addressing the results. Officials at two of three local agencies that we reviewed told us that there
was a need for a uniform, statewide training program. Accordingly, increased attention is
needed to identify and train contractors, inspectors, and assessors that repeatedly under-perform.

Additionally, although the State had taken action to mitigate the risk of carbon monoxide by
requiring the installation of carbon monoxide detectors, the efficacy of the detectors depends on
their proper installation. In at least one case, the mitigation effort was unsuccessful since the
local agency determined the detector was not operational after weatherization work had been
completed. Regarding the issue of initial assessments calling for insulation installation where
fire hazards existed without specifying mitigating safety measures, we noted that it was
impossible for the assessor to determine whether the installation of the insulation was cost-
effective as required by the Department since required safety measures were not specified and
priced. After considering Missouri's objections, we revised our report to include additional
information about these issues; however, our overall conclusions remained the same.

Managements' comments and our responses are discussed in more detail in the body of the
report. Managements' comments are included in Appendix 3 in their entirety.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Deputy Assistant Secretary for Energy Efficiency, EE-20
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S WEATHERIZATION
ASSISTANCE PROGRAM UNDER THE AMERICAN RECOVERY AND
REINVESTMENT ACT IN THE STATE OF MISSOURI

TABLE OF
CONTENTS


Weatherization Efforts

Details of Findings ....................................................................................................................1

Recommendations ......................................................................................................................7

Management and Auditor Comments ........................................................................................8


Appendices

Objective, Scope and Methodology ........................................................................................13

Related Reports .......................................................................................................................15

Management Comments .........................................................................................................17
The Department of Energy's Weatherization Assistance Program
under the American Recovery and Reinvestment Act in the State of
Missouri

Weatherization      The State of Missouri's Weatherization Assistance Program
Efforts             (Weatherization Program) provided 17 local agencies and
                    1 municipality (local agencies) American Recovery and
                    Reinvestment Act of 2009 (Recovery Act) funds to perform
                    weatherization work on the homes of low-income individuals.
                    Missouri's Department of Natural Resources (Missouri) is
                    responsible for the management and oversight of
                    weatherization work performed by local agencies and is to
                    ensure that the work is appropriately completed in accordance
                    with Recovery Act requirements.

                    Missouri made significant progress in implementing its
                    Recovery Act-funded Weatherization Program. As of
                    March 31, 2011, the State reported weatherizing almost 9,900
                    homes, nearly half of its overall Recovery Act goal. However,
                    in our review of three local agencies, Community Action
                    Agency of St. Louis County (St. Louis), Delta Area Economic
                    Opportunity Corporation (Delta), and Kansas City Housing &
                    Community Development Department (Kansas City), we found
                    problems with the quality of weatherization work, final
                    inspections, follow-up on inspection results and training that, in
                    our opinion, had not been adequately addressed and resolved.
                    The local agencies represented 24 percent of the State's total
                    Recovery Act funding for the Weatherization Program and 22
                    percent of the total units expected to be completed.

                                    Quality of Weatherization Work

                    Our audit identified problems with the quality of
                    weatherization work within the State. Specifically, Missouri
                    had experienced recurring problems in the quality of
                    weatherization work and initial home assessments. In
                    particular, in Missouri's Weatherization Program a large
                    percentage of homes required further work, in some cases due
                    to poor contractor performance, after contractors had
                    completed work. Department of Energy (Department)
                    regulations require that a final inspection be conducted by the
                    local agency before the work on a home is accepted as
                    complete. Additionally, the regulations require the State to re-
                    inspect at least five percent of the homes weatherized by each
                    local agency. Due to its concerns with quality of work issues,
                    Missouri increased its re-inspections beyond the 5 percent
                    requirement to 10 percent at certain high-risk local agencies,
                    including the 3 local agencies we reviewed.

Page 1                                                            Details of Finding
         Between July 2009 and June 2010, State monitors determined
         that approximately 30 percent (156 of 523) of the homes they
         re-inspected for the State's 18 local agencies required further
         action because the work was not acceptable. State monitors
         found issues such as unacceptably high levels of carbon
         monoxide emitted by furnaces and hot water heaters that had
         been worked on by contractors; furnaces and hot water heaters
         that had not been vented properly; the lack of pressure release
         pipes on water heaters; and, failures to properly install
         insulation and complete tasks specified in work orders.

         During our observation of final inspections of 20 homes
         conducted by Kansas City, St. Louis, and Delta, we found that
         11 of the homes (55 percent) failed local agency final
         inspections. The final inspections were conducted after
         contractors had completed all weatherization measures for the
         homes. Specifically:

                At St. Louis, 6 of the 11 homes we visited failed final
                inspection. Four of the homes failed because a furnace
                or hot water heater was not working properly and/or
                emitting carbon monoxide at higher than acceptable
                levels, increasing the risk to residents. Two of the six
                homes failed because contractors had not properly
                sealed air leaks;

                At Kansas City, four of the five homes we visited failed
                final inspection. Three of four homes failed because a
                furnace or hot water heater was not working properly
                and/or emitting carbon monoxide at higher than
                acceptable levels. The fourth home failed the
                inspection because not all air infiltration measures
                called for in the work order were installed by the
                contractor; and,

                At Delta, one of the four homes failed final inspection
                because a water heater was not drafting properly, a
                condition that could result in the emission of carbon
                monoxide at higher than acceptable levels.

         Subsequent to our review, the local agencies we visited took
         appropriate action to resolve the issues that resulted in the
         failed inspections. Each of the local agencies provided us with
         documentation to verify that issues had been resolved and that
         homes subsequently passed final inspection.



Page 2                                               Details of Finding
                     In addition to the issues identified with contractor work, three
                     of the final inspections noted problems with the initial
                     assessments conducted by local agencies. Specifically:

                            At St. Louis, for 2 of the 11 homes, assessors had
                            prescribed insulation for attics that had live knob and
                            tube wiring, a type of wiring commonly used over 80
                            years ago, without prescribing required safety
                            measures. Installing insulation in such instances
                            without the required safety measures could potentially
                            create a fire hazard. The contractor in each instance
                            had noted the presence of live knob and tube wiring and
                            had not installed the insulation. Missouri officials
                            pointed out that it is appropriate to install insulation in
                            attics with live knob and tube wiring provided certain
                            safety measures are incorporated. However, in certain
                            cases the cost of the additional safety measures may
                            make the insulation work no longer cost-effective. As
                            previously discussed, the assessors had not prescribed
                            required safety measures for the insulation and,
                            therefore, had not determined whether the installation
                            of insulation together with required safety measures
                            were cost-effective as required by the Department. In
                            one of the two homes, an agency assessor had also
                            performed a de-pressurized blower test even though the
                            home may have contained asbestos. The de-pressurized
                            blower test could have potentially spread asbestos
                            throughout the house. The Missouri plan states that
                            blower door tests should not be performed when
                            asbestos is present.

                            At Delta, an assessor had failed to identify improper
                            venting of a hot water heater at one home. The final
                            inspector noted this assessment error and appropriate
                            remedial action was recommended and completed.

Program Weaknesses   Quality issues in initial assessments and weatherization work
                     resulted from a combination of program weaknesses including
                     inadequate final inspections conducted by local agencies,
                     ineffective follow-up on systemic issues identified in re-
                     inspections, and insufficient training of local agency and
                     contractor personnel.




Page 3                                                             Details of Finding
                         Local Agency Final Inspections

         Although they performed effective inspections of the homes we
         visited, local agency inspectors often failed to identify
         problems, allowing quality issues to persist. During the re-
         inspections of homes weatherized by local agencies, State
         monitors found that in approximately one of three cases, local
         agency final inspectors passed homes that actually required
         further action. In other words, homes deemed to be completed
         by local agency officials often had significant problems that
         had not been resolved. This is especially troubling given that
         the State re-inspects only 5 to 10 percent of weatherized
         homes, thus homes not re-inspected by the State likely have
         workmanship issues not discovered by local agency final
         inspections.

         At the three local agencies included in our audit, final
         inspections we observed were thorough. Local agency
         inspectors we accompanied identified significant issues and
         failed 11 of the 20 homes inspected. However, State-
         monitoring data from July 2009 to June 2010 documented that,
         like other local agencies in the State, these local agencies often
         passed homes that required further action. Specifically:

                At St. Louis, 20 of 60 homes re-inspected by the State
                during this period, or 33 percent, required further work
                even though they had previously passed the local
                agency's inspection;

                At Kansas City, 25 of 57 homes re-inspected, or 44
                percent, required further action; and,

                At Delta, 12 of 28 homes re-inspected, or 43 percent,
                required further action.

         State officials pointed out that the high rates of homes
         requiring further action after State re-inspection may be
         attributable to the State requiring follow-up actions that may
         not have been required in the past, such as painting or priming
         installed wood. To its credit, beginning in January 2010,
         Missouri had increased the frequency of technical monitoring
         to three times a year, in excess of the annual monitoring
         required by the Department. This increased monitoring may
         have had a positive effect on the quality of local agency final
         inspections. Specifically, for the 4-month period ending June
         2010, the rate of homes requiring further action after State re-

Page 4                                                 Details of Finding
         inspection had fallen to 22 percent statewide. The rates for this
         4-month period had fallen to 17 percent for St. Louis, 29
         percent for Delta, and 33 percent for Kansas City. However,
         we remain concerned about the excessive rate at which local
         agency inspectors had failed to identify needed improvements
         that were subsequently identified by the State. Additionally,
         absent an increased focus on addressing systemic issues,
         workmanship issues are likely to continue.

                        Follow-up on Inspection Results

         Neither the State nor the three local agencies we visited
         adequately followed-up on commonly recurring issues noted
         during home inspections and re-inspections. Missouri had
         repeatedly identified quality issues at local agencies throughout
         the State and had taken some steps to resolve recurring
         problems. For example, Missouri had increased the frequency
         of its technical monitoring visits and had begun issuing
         periodic newsletters that discussed recurring problems and
         suggested best practices. However, Missouri had not tracked
         and monitored contractors and local agency personnel
         responsible for weatherized homes that required further work.
         Rather, as it re-inspected weatherized homes, Missouri detailed
         the deficiencies noted in the contractors' work, or in local
         agency assessments and final inspections, and directed local
         agencies to correct the deficiencies for the specific homes
         cited. Appropriately, Missouri followed-up with the local
         agencies to ensure that those specific deficiencies had been
         corrected. While the current system appeared to successfully
         identify and correct issues at the 5 to 10 percent of homes
         selected for re-inspection, it did not necessarily improve the
         local agencies' processes to prevent the same types of issues
         from occurring at those homes not specifically included in the
         State's re-inspections.

         Additionally, although Missouri relied on each local agency to
         track contractors, assessors, and inspectors who had failed to
         perform adequately and to take appropriate action, we found
         that the local agencies had not always effectively tracked
         performance. We found, for example, that while St. Louis and
         Kansas City had processes in place to track the quality of
         contractor work, they did not consistently use them to improve
         the performance of contractors by requiring them to submit
         proposed corrective action plans for recurring problem areas.
         Local agencies also did not appear to be effectively utilizing



Page 5                                                Details of Finding
         the State's monitoring reports to improve the quality of their
         assessments and final inspections, as subsequent State
         monitoring reports showed that some previously noted
         significant problems continued to occur. Missouri officials
         acknowledged the importance of following up with local
         agencies to ensure that deficiencies were not repeated.

                                     Training

         Based upon our discussions with State and local agency
         officials, we determined that a contributing factor to
         weatherization work quality problems may have been the lack
         of uniformly trained contractors, assessors, and inspectors.
         Although the State's 2009 Weatherization Annual Plan had
         identified the need for statewide training to ensure the
         performance of quality weatherization work and had detailed
         efforts to provide additional training in a compressed
         timeframe, Missouri had not fully provided the planned
         training due to contracting issues. Missouri, however, had
         identified numerous weatherization training courses that were
         available and made that information known to the local
         agencies. Despite its efforts, we noted that Missouri had not:

                Tracked training actually taken by local agency and
                contractor personnel;

                Established minimum qualifications and training
                requirements for weatherization contractors as a
                prerequisite to bid on weatherization jobs, except in
                regard to "lead-safe" and occupational safety and health
                training; and,

                Established minimum qualifications and training
                requirements for local agency assessors and inspectors,
                except that each local agency was required to have at
                least one employee who was certified by the Building
                Performance Institute (BPI) and weatherization crews
                must have "lead-safe" and occupational safety and
                health training. Missouri instituted the BPI certification
                requirement in 2005, 4 years before the Recovery Act
                funding increased the size of the program from
                $9 million to $128 million. The State did not expand
                the requirement for BPI certification to correspond to
                the large influx of weatherization work resulting from
                the Recovery Act.



Page 6                                                Details of Finding
                       In response to our draft report, two agencies expressed the need
                       for a uniform, statewide training program. Delta
                       acknowledged that more lead-time in planning and training
                       would have benefited employees, the State, and the public, and
                       expressed its interest in working with the State and the
                       Department to develop a comprehensive training program for
                       the Weatherization Program. Further, Kansas City officials
                       stated they would like to see a State-sponsored training
                       program that would bring all aspects of the energy
                       conservation process together.

Excess Vehicles        We found that one local agency, St. Louis, had acquired more
                       vehicles with Recovery Act funds than it needed to meet its
                       weatherization goals. Between November 2009 and January
                       2010, the local agency had spent nearly $400,000 to purchase
                       24 vehicles. During our June 2010 fieldwork in St. Louis, we
                       noted that over the 5-month period from January 2010 through
                       June 2010, the vehicles had been driven a total of about 32,000
                       miles, or less than an average of 100 miles each per week.
                       Although St. Louis had obtained approval from both Missouri
                       and the Department prior to the acquisition of the vehicles, it
                       had justified vehicle purchases on projected staffing and usage
                       needs that were not realized. Missouri officials told us that
                       they were aware that the local agency had an excess number of
                       vehicles and asserted that they had prompted St. Louis to take
                       action. Missouri, however, was unable to provide any evidence
                       that it had required the local agency to reduce the vehicle fleet
                       prior to our audit. During our audit, the agency sold 6 excess
                       vehicles to other local agencies in the State, recouping
                       $101,500 that will be available to weatherize additional homes.
                       In response to our draft report, Missouri officials stated that
                       they will continue to monitor local agencies' vehicle usage.

Impact of Missouri's   The weaknesses we identified, if uncorrected, could pose
Weatherization         health and safety risks to residents, hinder production, and
Program Problems       increase program costs. Additionally, these weaknesses
                       increase the risk of fraud, waste and abuse.

RECOMMENDATIONS        To address the deficiencies we observed during our audit, we
                       recommend the Acting Assistant Secretary for Energy
                       Efficiency and Renewable Energy:

                          1. Take immediate action to ensure that Missouri:

                                  a. Analyzes its technical monitoring reports and
                                     makes such changes as necessary to allow it to



Page 7                                                             Recommendations
                                  identify and recommend corrective actions for
                                  systemic problems with regard to those
                                  contractors, inspectors, and assessors who
                                  repeatedly under-perform; and,

                              b. Implements appropriate weatherization training
                                 and certification for contractors and local
                                 agency assessors and inspectors.

                      2. Take action to ensure that Missouri requires its local
                         agencies to:

                              a. Improve the final inspection and assessment
                                 processes by examining completed and
                                 inspected homes, analyzing results, and taking
                                 corrective action on any deficiencies noted; and,

                              b. Implement a formal follow-up process to
                                 develop and ensure implementation of
                                 corrective action plans addressing needed
                                 contractor improvements.

MANAGEMENT AND     The Department, Missouri, St. Louis, Delta and Kansas City
AUDITOR COMMENTS   provided responses to our draft audit report, which are included
                   in Appendix 3. After reviewing the comments, we made
                   appropriate changes to our report to address those concerns and
                   to clarify our findings and conclusions. Below is a summary of
                   their key comments and our response to their comments.

                               Management Comments (Department)

                   The Department concurred with our recommendations and
                   provided an action plan for implementing them. The
                   Department stated that, in response to its concerns and
                   corrective action plans, Missouri had made a number of
                   improvements in how it implemented the weatherization
                   program. The Department stated that additional work was
                   needed and, during on-site quarterly visits, the Departmental
                   project officer will assess how the State is progressing in
                   meeting the audit recommendations. Management committed
                   to aggressively monitor the State's progress in the areas
                   identified in our report. Specifically, the Department will work
                   with the State to develop: (1) a system to track individual
                   contractor, inspector, and auditor performance; (2) appropriate
                   weatherization training curriculum and proficiency




Page 8                                    Management and Auditor Comments
         requirements; (3) a system to enable local agencies to identify
         deficiencies in program compliance; and,( 4) a follow-up
         process to address recurring local agency issues.

                  Auditor Response to Department Comments

         The Department's comments are responsive to our
         recommendations.

                         Management Comments (State)

         Missouri officials shared our concern with respect to
         workmanship issues and noted that to address these issues they
         had: increased local agency monitoring; provided additional
         training; and, identified recurring problems and suggested best
         practices for addressing them. State officials, for example,
         pointed out that they re-inspect 10 percent of the homes
         weatherized by high-risk agencies rather than the 5 percent re-
         inspection rate required by the Department. State officials
         stated that their systematic improvements have significantly
         reduced the rate of additionally required work on weatherized
         homes from the 30 percent experienced during the period July
         2009 to June 2010, to 14 percent during the first 4 months of
         2011.

         State officials also stated that beginning in August 2010, they
         provided on-site training to all sub-grantees and provided
         additional one-on-one follow-up training to auditors and
         contractors on issues such as: building science, heating and air
         conditioning, insulation and air sealing, lead safety and
         occupational safety and health. State officials also noted that
         they have distributed periodic newsletters that identify
         recurring problems and suggest "best practices" for mitigating
         such issues.

         State officials were also concerned with our characterization of
         unacceptable carbon monoxide levels and the associated health
         and safety risks. Specifically, State officials commented that
         carbon monoxide testing was not part of the final inspection,
         but part of a separate post work inspection. Missouri officials
         also noted that high carbon monoxide readings were not
         necessarily an indication of poor contractor performance and
         that the Weatherization Program had multiple safeguards in
         place to minimize any risk to health and safety, including the
         requirement that carbon monoxide detectors be installed in
         homes. State officials indicated that rather than require



Page 9                                                       Comments
          assessors to identify the existence of live knob and tube wiring
          and other safety issues, contractors were trained and certified to
          recognize such matters.

                       Auditor Response to State Comments

          The State's comments were, in general, responsive to our
          recommendations. Officials indicated that they had already
          taken some actions to address the issues we identified,
          including increased and more timely monitoring; corrective
          action plans for local agencies to address findings; and, a
          newsletter to provide local agencies with information on policy
          changes, most common findings, areas of concern, and
          systemic problems.

          After considering Missouri's concerns about our
          characterization of its program, we revised our report to
          include additional information, specifically noting that the
          State's increased monitoring appears to have had a positive
          effect on the quality of local agency final inspections and that
          inspection failure rates had declined. However, we remain
          concerned that neither the State nor the local agencies included
          in our review track and monitor deficient contractors and that
          the State has not developed a comprehensive training program.
          As previously discussed, 2 of the 3 local agencies that we
          reviewed continued to require further action at rates
          approximating 30 percent after re-inspection after the State
          increased its inspections of weatherized homes. Additionally,
          State officials told us that their on-site training was not formal
          and involved meetings to discuss re-inspection results and
          provide guidance on addressing the results. As previously
          discussed, two of three local agencies we reviewed expressed
          the need for a uniform, statewide training program.
          Accordingly, increased attention is needed to identify and train
          contractors, inspectors, and assessors who repeatedly under-
          perform.

          Further, information provided by the State contradicted that
          provided by local officials regarding carbon monoxide testing.
          Specifically, local officials stated that carbon monoxide testing
          was, in fact, part of their final inspection process. Also, while
          we agree that safeguards such as carbon monoxide detectors
          mitigate the health and safety risk, we remain concerned that 8
          of the 20 (40 percent) of the homes we visited had furnaces or
          hot water heaters not working properly and/or emitting higher
          than acceptable levels of carbon monoxide at the time of the



Page 10                                                         Comments
          final inspection. Finally, we continue to be concerned about
          the failure to identify the presence of live knob and tube wiring
          during the assessment. In the two instances cited in our report,
          the contractor chose not to install the prescribed insulation.
          However, our review of State monitoring reports noted four
          instances in Fiscal Year 2010 where contractors had installed
          insulation over live knob and tube wiring. In each case, the
          State required the contractors to correct the deficiency.

                     Management Comments (Local Agencies)

          St. Louis expressed its appreciation that its Weatherization
          Program had been selected to receive Recovery Act funding,
          but pointed out that the stimulus funding had changed its small
          program into a major network project with a very short period
          of time for implementation and completion. St. Louis
          explained that equipment purchases and labor were calculated
          to fulfill production based on prescribed formulas and
          benchmarks. St. Louis added that, over the months, new
          stipulations were enforced causing continual procedural and
          production adjustments, and that the process had been a
          learning tool for all involved.

          Delta responded that just prior to the passage of the Recovery
          Act it had undergone a major change in weatherization
          personnel, leaving it with a significant number of
          inexperienced employees. Delta recognized the need for a
          tracking system to identify recurring issues, both agency-wide
          and by employee/contractor, and stated its intent to develop
          and utilize a tracking system to identify recurring issues in the
          weatherization program.

          Kansas City responded that the high rate of homes requiring re-
          inspection may be attributable to the State requiring follow-up
          actions that may not have been required in the past. Kansas
          City added that it uses a contractor evaluation process, which
          penalizes underperforming contractors by excluding them from
          bidding on new jobs for certain prescribed periods. Further,
          Kansas City stated it provides complete testing at the time of
          final inspection and requires all combustion appliances to be
          working in accordance with regulations and agrees with the
          State that the weatherization work can and does change the
          dynamics of the combustion air zone, which may require
          multiple trips to accomplish the best outcomes of appliance
          safety and energy efficiency.




Page 11                                                        Comments
                 Auditor Response to Local Agencies' Comments

          The local agencies' comments generally affirm our findings
          and are responsive to our recommendations. With regard to
          Kansas City's response on its contractor evaluation process, we
          agree that the agency's process penalizes contractors by
          holding them out from bidding for one or more bidding
          periods. However, that process does not require contractors to
          submit a proposed corrective action plan.




Page 12                                                      Comments
Appendix 1

OBJECTIVE     The objective of the audit was to determine whether the State
              of Missouri had adequate safeguards in place to ensure that the
              Weatherization Assistance Program (Weatherization Program)
              was managed efficiently and effectively.

SCOPE         The audit was performed between May 2010 and July 2011, at
              the Missouri Department of Natural Resources (Missouri) in
              Jefferson City and at three local agencies: Community Action
              Agency of St. Louis County (St. Louis) located in St. Louis,
              Missouri; Delta Area Economic Opportunity Corporation
              (Delta) located in Portageville, Missouri; and, the Kansas City
              Housing & Community Development Department (Kansas
              City) located in Kansas City, Missouri.

METHODOLOGY   To accomplish the audit objective, we:

                    Reviewed applicable laws, regulations, and guidance
                    pertaining to the Weatherization Program under the
                    American Recovery and Reinvestment Act of 2009, as
                    well as laws, regulations and guidance applicable to
                    Missouri's Weatherization Program;

                    Interviewed Missouri officials to discuss current and
                    ongoing efforts to implement the requirements of the
                    Weatherization Program;

                    Assessed the internal controls of Missouri and the local
                    agencies over the Weatherization Program;

                    Examined the weatherization activities conducted at the
                    3 judgmentally selected local agencies that represent
                    approximately 24 percent of the State's total funds and
                    22 percent of the total units expected to be completed;

                    Analyzed Missouri monitoring reports and calculated
                    historic and current deficiencies reported by the State;

                    Accompanied inspectors on final inspections and
                    reviewed past Missouri monitoring reports which
                    evaluated the performance of final inspectors, as well as
                    the performance of the contractors and assessors; and,

                    Reviewed prior audits of the Weatherization Program
                    conducted by the Missouri State Auditor.




Page 13                                Objective, Scope and Methodology
Appendix 1 (continued)

                    We conducted this performance audit in accordance with
                    generally accepted Government auditing standards. Those
                    standards require that we plan and perform the audit to obtain
                    sufficient, appropriate evidence to provide a reasonable basis
                    for our findings and conclusions based on our audit objective.
                    We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit
                    objective. The audit included tests of controls and compliance
                    with laws and regulations necessary to satisfy the audit
                    objective. Because our review was limited, it would not
                    necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. We assessed
                    performance measures in accordance with the Government
                    Performance and Results Act of 1993 and determined that
                    performance measures had been established for the
                    Weatherization Program. We conducted a reliability
                    assessment of computer processed data we considered to be
                    critical to our objective. We deemed the data to be sufficiently
                    reliable.

                    We held an exit conference with Department officials on
                    July 29, 2011.




Page 14                                      Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORTS

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Office of
Inspector General has initiated a series of audits designed to evaluate the Department of
Energy's (Department) Weatherization Assistance Program's internal control structures at the
Federal, state, and local levels. Although not found in every state, these audits have
identified issues such as poor quality of weatherization services, deficient inspections and re-
inspections, inadequate inventory controls, and the ineffective administration of
weatherization grants which resulted in questioned costs. Our series of audit reports include
the following:

       Audit Report The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act in the State of West Virginia (OAS-
       RA-11-09, June 2011)
       Audit Report The Department of Energy's Weatherization Assistance Program
       Funded under the American Recovery and Reinvestment Act for the State of
       Wisconsin (OAS-RA-11-07, May 2011)
       Audit Report The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act for the Capital Area Community
       Action Agency – Agreed-Upon Procedures (OAS-RA-11-04, February 2011)
       Audit Report The Department of Energy's Weatherization Assistance Program under
       the American Recovery and Reinvestment Act for the City of Phoenix- Agreed-Upon
       Procedures (OAS-RA-11-03, November 2010)

       Audit Report Selected Aspects of the Commonwealth of Pennsylvania's Efforts to
       Implement the American Recovery and Reinvestment Act Weatherization Assistance
       Program (OAS-RA-11-02, November 2010)

       Audit Report The State of Illinois Weatherization Assistance Program (OAS-RA-11-
       01, October 2010)

       Audit Report The Department of Energy's Use of the Weatherization Assistance
       Program Formula for Allocating Funds under the American Recovery and
       Reinvestment Act (OAS-RA-10-13, June 2010)

       Preliminary Audit Report Management Controls over the Commonwealth of
       Virginia's Efforts to Implement the American Recovery and Reinvestment Act
       Weatherization Assistance Program (OAS-RA-10-11, May 2010)

       Special Report Progress in Implementing the Department of Energy's Weatherization
       Assistance Program under the American Recovery and Reinvestment Act (OAS-RA-
       10-04, February 2010)




Page 15                                                                       Related Reports
Appendix 2 (continued)

     Audit Report Management Alert on the Department's Monitoring of the
     Weatherization Assistance Program in the State of Illinois (OAS-RA-10-02,
     December 2009)




Page 16                                                               Related Reports
Appendix 3




Page 17      Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
Appendix 3 (continued)




Page 21                  Management Comments
Appendix 3 (continued)




Page 22                  Management Comments
Appendix 3 (continued)




Page 23                  Management Comments
Appendix 3 (continued)




Page 24                  Management Comments
Appendix 3 (continued)




Page 25                  Management Comments
Appendix 3 (continued)




Page 26                  Management Comments
Appendix 3 (continued)




Page 27                  Management Comments
Appendix 3 (continued)




Page 28                  Management Comments
                                                       IG Report No. OAS-RA-11-12

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
